                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: I02040014                                                                        Page 1 of 1



          On 22 March 02, OIG received an allegation from a Program Director in the Division of
          Undergraduate Education that an Associate Professor of Mechanical Engineering had
          misappropriated grant funds. The program director was also concerned about a particular workshop
          the principal investigator had not accomplished between May 1997 and April 2001 and unspent
          monies returned to NSF.

          After careful review of the payroll documents, timecards, vouchers, invoices, and canceled
          checks submitted by the university, there is no evidence to support the initial allegation of
          misappropriation of funds.

          After careful review of documents both submitted and gathered, there is no evidence of any
          discussion of a workshop. Further, the university explained that the cooperating institution failed to
          enroll students in the proposed pre-engineering class for 2 of the 3 grant years, therefore negating the
          obligation of funds for the budgeted subcontract.

          The final project report was approved May 24,2002.

1         Accordingly, this case is closed.




                              Agent                   Attorney                 Supervisor                  AIGI

      Sign l date
